\

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
Washington, DC 20543-0001

IN RE: Whitehead v. Clinton, Bush and Obama, et al
DAVID LOUIS WHITEHEAD,
PETITIONER,

V.

Case No. 21-174

UNITED STATES DISTRICT COURT FOR THE WESTERN DISTRICT OF
ARKANSAS
RESPONDENTS.

MOTION TO RECUSE SUPREME COURT JUSTICES BRETT M.
KAVANAUGH AND AMY COMEY BARRETT PURSUANT TO FEDERAL
RULES OF CIVIL PROCEDURE 28 U.S.C. SECTION 455 a, bl, b2.

Comes Now Petitioner David Louis Whitehead with his

MOTION

TO RECUSE SUPREME COURT JUSTICES BRETT M. KAVANAUGH AND
AMY COMEY BARRETT PURSUANT TO FEDERAL RULES OF CIVIL
PROCEDURE 28 U.S.C. SECTION 455 a, bl, b2.

Opposing counsels were not available to consent to the motion.

I received
MIG 18 2021

8IBS5ff<BBg€S
*

'■

\

Grounds for Relief
Petitioner states the underlining of the case is associated with respondents White &
Case LLP, Wallpark LLC and Judge Paul L. Friedman and others.
Whereas, in 2000, White & Case LLP associated with Wallpark LLC and Judge
Friedman represented Texas Governor George W. Bush in Supreme Court case
Bush v. Gore, 2000. Attorneys Kavanaugh and Barrett, now, presiding as
Supreme Court Justices and White & Case Attorney George Terwillinger
represented Texas Governor George W. Bush in Bush v. Gore, 2000. (2) This
case named Judge Kavanaugh, White & Case LLP, Wallpark LLC, and Judge
Friedman, a General Partner with White & Case LLP and Wallpark LLC investors,
Spouses, Partners and former Partners as Respondents. Case law states recusal is
required should a judge was associated with legal representation of a party, or
named in the case. See 28 U.S.C. Section 455 a and bl, b2:
(a) Any justice, judge, or magistrate of the United States shall disqualify himself in
any proceeding in which his impartiality might reasonably be questioned, (b) He
shall also disqualify himself in the following circumstances: (1) Where he has a
personal bias or prejudice concerning a party, or personal knowledge of disputed
evidentiary facts concerning the proceeding; (2) Where in private practice he
served as lawyer in the matter in controversy, or a lawyer with whom he previously
practiced law served during such association as a lawyer concerning the matter, or
the judge or such lawyer has been a material witness concerning it...
Here, in this case both Justices Kavanaugh and Barrett has a duty to disqualify
themselves from this litigation pursuant to Rule 28 U.S.C. Section 455 a, bl, b2.
(See attached affidavit)

iu-'i

Harvard University is also a respondent in this case, and recusal should be
examined on controversy involving Harvard University. 28 U.S.C. Section 455 a,
bl (Judicial bias and prior knowledge), citing Liteky v. United States, 510 U.S. 540
(1994).

In conclusion, petitioner prays that the court will grant the motion.

Respectfully Submitted,

David Louis Whitehead
1906 Scott St.
Bossier, Louisiana 71111

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
Washington, DC 20543-0001

IN RE: Whitehead v. Clinton, Bush and Obama, et al
DAVID LOUIS WHITEHEAD,
PETITIONER,

Case No. 21-174

V.

UNITED STATES DISTRICT COURT FOR THE WESTERN DISTRICT OF
ARKANSAS
RESPONDENTS.

AFFIDAVIT SUPPORTING MOTION TO RECUSE SUPREME COURT
JUSTICES BRETT M. KAVANAUGH AND AMY COMEY BARRETT
PURSUANT TO FEDERAL RULES OF CIVIL PROCEDURE 28 U.S.C.
SECTION 455 a,bl,b2.

Comes Now Petitioner David Louis Whitehead with his affidavit
supporting his MOTION TO RECUSE SUPREME COURT JUSTICES BRETT
M. KAVANAUGH AND AMY COMEY BARRETT PURSUANT TO FEDERAL
RULES OF CIVIL PROCEDURE 28 U S.C. SECTION 455 a, bl, b2.

I, David Louis Whitehead testify under the laws of perjury that the following
statements are true to the best of his abilities:
1. I am a person over the age of 18 years old.

2.

Grounds for Relief

Petitioner states the underlining of the case is associated with respondents White &
Case LLP, Wallpark LLC and Judge Paul L. Friedman and others.
Whereas, in 2000, White & Case LLP associated with Wallpark LLC and Judge
Friedman represented Texas Governor George W. Bush in Supreme Court case
Bush v. Gore, 2000. Attorneys Kavanaugh and Barrett, now, presiding as
Supreme Court Justices and White & Case Attorney George Terwillinger
represented Texas Governor George W. Bush in Bush v. Gore, 2000. (2) This
case named Judge Kavanaugh, White & Case LLP, Wallpark LLC, and Judge
Friedman, a General Partner with White & Case LLP and Wallpark LLC investors,
Spouses, Partners and former Partners as Respondents. Case law states recusal is
required should a judge was associated with legal representation of a party, or
named in the case. See 28 U.S.C. Section 455 a and bl, b2:
(a) Any justice, judge, or magistrate of the United States shall disqualify himself in
any proceeding in which his impartiality might reasonably be questioned, (b) He
shall also disqualify himself in the following circumstances: (1) Where he has a
personal bias or prejudice concerning a party, or personal knowledge of disputed
evidentiary facts concerning the proceeding; (2) Where in private practice he
served as lawyer in the matter in controversy, or a lawyer with whom he previously
practiced law served during such association as a lawyer concerning the matter, or
the judge or such lawyer has been a material witness concerning it...

Here, in this case both Justices Kavanaugh and Barrett has a duty to disqualify
themselves from this litigation pursuant to Rule 28 U.S.C. Section 455 a, bl, b2.
Harvard University is also a respondent in this case, and recusal should be
examined on controversy involving Harvard University. 28 U.S.C. Section 455 a,
bl (Judicial bias and prior knowledge), citing Liteky v. United States, 510 U.S. 540
(1994).
In conclusion, petitioner prays that the court will grant the motion.

Respectfully Submitted,

David Louis Whitehead
August 12, 2021

SWORN TO AND SUBSCRIBED BEFORE ME, NOTARY, THIS 12th DAY OF AUGUST, 2021.

NOTARY

^^ssssssro
my Commission 1$ For Life

